                            2
   OFFICE OF THE INSPECTOR GENERAL




                            0
               SEMIANNUAL REPORT




                            0
APRIL 1, 2000 ~ SEPTEMBER 30, 2000




                            0
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA) Board
of Directors and Congress on the
overall efficiency, effectiveness, and
economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.


The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations; and
(3) inefficiencies in TVA programs and
operations.


If you want to report any matter
involving TVA programs, operations, or
employees, you should call the OIG
Hotline or write the Inspector General's
office.




               TVA
               TVA
                                            Call toll free:
               INSPECTOR
                                            1-800-323-3835
               GENERAL                      865-632-3550 (Knoxville)


                           n e
                      t li                  Tennessee Valley Authority
                                            400 West Summit Hill Drive ET 4C


                  H o                       Knoxville, Tennessee 37902-1401
Tennessee Valley Authority
                 Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




Richard F. Chambers
Inspector General



October 31, 2000




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS



As the newly appointed Inspector General for TVA, I am pleased to submit this semiannual report on the
accomplishments of the OIG for the six-month period ending September 30, 2000.

This reporting period has been one of significant change for the OIG. In July 2000, George Prosser, who
served as the TVA Inspector General for six years, announced his decision to retire. The TVA Board of
Directors appointed me as the new Inspector General, and I transferred in August from the U.S. Postal
Service where I served as Deputy Inspector General. Mr. Prosser will serve as an advisor until his formal
retirement in December 2000.

My initial impressions of the OIG have been extremely positive. The staff is a highly motivated group of
seasoned professionals as reflected in the quality of their work. During this reporting period, OIG audits,
investigations, and special projects continued to identify opportunities for TVA to save or recover money or
to make process improvements, and TVA continued to respond favorably to OIG recommendations.

We are allocating OIG resources for the coming year based on an assessment of business and operating
risks faced by TVA. During the next six months, we will undertake extensive reviews of OIG internal
processes, and we also will review and revise our strategic plan as necessary to ensure we are aligned with
needs of our key stakeholders.

I am proud to be a part of TVA’s OIG and to be associated with so many qualified and dedicated profes-
sionals. I look forward to a positive and productive working relationship with TVA management, the Board,
and the Congress.

Sincerely,


Richard F. Chambers




                                                          SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
                                                                                               C O N T E N T S               ■




1    Executive Summary                                   8   Audits
                                                                                                             OFFICE OF THE
                                                                                                             INSPECTOR
2    TVA Profile                                         14 Investigations                                   GENERAL

                                                                                                             SEMIANNUAL
3    Office of the Inspector General                     20 Special Projects                                 REPORT

                                                                                                             APRIL 1 THROUGH
5    Special Feature                                     21 Legislation and Regulations
                                                                                                             SEPTEMBER 30, 2000




Appendices
    1. OIG Audit Reports Issued During the Six-Month Period Ending September 30, 2000
    2. OIG's Report on Management Decisions for the Six-Month Period Ending September 30, 2000
    3. Investigative Referrals and Prosecutive Results
    4. Audit Reports With Corrective Actions Pending
    5. OIG Reporting Requirements




                                                                      SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
■    E X E C U T I V E             S U M M A R Y




                      We continued our efforts to support TVA        fossil plant. Representative special
                      by providing quality audits, investigations,   projects included review of: (1) hospitality
                      and special projects. During this              and entertainment policies, (2) TVA’s
This report           reporting period, we identified over           development of new procedures in the
summarizes the        $15 million in recoveries, potential           bulk power trading program, (3) a
                      savings, questioned costs, or funds            contractor’s claim of unbilled labor
activities and
                      which could be put to better use.              totaling over $230,000, and (4) TVA’s
accomplishments       Management took numerous actions in            implementation of a new prescription
of TVA's OIG          response to our recommendations.               drug plan.

during the            We completed 35 audits and 8 special           We closed 99 investigations, which led to

six-month period      project reviews. We identified $1.8 million    over $700,000 in savings and recoveries,
                      in questioned costs and about $12.9 mil-       administrative or disciplinary action taken
ending
                      lion in funds that could be used more          against 11 individuals, and other correc-
September 30,         effectively. Representative audits             tive action in 6 cases. Matters we
                      included the following areas:                  investigated included workers’ compen-
2000.
                      (1) preaward and postaward contract            sation fraud, environmental crimes,
                      audits, (2) reviews of material manage-        contractors’ fraudulent claims for
                      ment practices at two TVA fossil plants,       temporary living expenses, health care
                      (3) TVA performance measures under the         fraud, alleged falsifications in background
                      Government Performance and Results             investigations performed by a TVA
                      Act, (4) a review of controls on the use of    contractor, and employee conduct
                      cash subvouchers, and (5) reviews of           issues. Our investigations also led to five
                      material management practices at a TVA         subjects being indicted and five
                                                                     convicted.




1    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                T V A           P R O F I L E           ■




                              Bowling Green
                                             •

                                                                              •
                                                                           Bristol


                                    •                          Knoxville
                                                                                     29 hydroelectric dams, 4 combustion
                                 Nashville
                                                               •
              Jackson
                •
                                                                                     turbine plants, and a pumped storage
  Memphis
  •                                              Chattanooga
                                                 •
                          •
                        Muscle
                                   Huntsville
                                        •                                            plant. These plants provide over
                        Shoals

            Columbus
                    •                                                                28,000 megawatts of net dependable
                                                                                     generating capacity. TVA’s electric power
                                                                                     business is entirely self-funding.               TVA's 13,145

                                                                                     TVA’s major functions include (1) multiple       employees serve
TVA is a federal corporation, the nation’s
                                                                                     purpose management of the Tennessee              an 80,000-square-
largest wholesale producer of electric
                                                                                     River system; (2) generation, sale, and
power, a regional economic development                                                                                                mile region
                                                                                     transmission of electricity to wholesale
agency, and a national center for environ-
                                                                                     and large industrial customers; (3) invest-      spanning seven
mental research. TVA’s statutory
                                                                                     ment in economic development activities
responsibilities include management of                                                                                                states.
                                                                                     that generate a higher standard of living
the nation’s fifth largest river system.
                                                                                     for citizens of the Tennessee Valley;
                                                                                     (4) stewardship of TVA assets and
TVA’s mission, as stated in its Annual
                                                                                     provision of recreation opportunities on
Performance Plan, is “to develop and
                                                                                     federal lands entrusted to TVA; and
operate the Tennessee River system to
                                                                                     (5) research and technology development
minimize flood damage and improve
                                                                                     that addresses environmental problems
navigation, and to provide energy and
                                                                                     related to TVA’s statutory responsibilities
related products and services safely,
                                                                                     for river and land management and power
reliably, and at the lowest feasible cost to
                                                                                     generation.
residents and businesses in the multi-
state Tennessee Valley Region.”
                                                                                     TVA is governed by a three-member
                                                                                     Board of Directors appointed by the
TVA’s programs fall into two separate but
                                                                                     President and confirmed by the Senate.
interrelated activities—the power
                                                                                     Craven Crowell is the Chairman, and Skila
program and the resource management
                                                                                     Harris and Glenn L. McCullough, Jr., are
programs. TVA’s power system consists
                                                                                     Directors.
of 11 coal-fired plants, 3 nuclear plants,




                                                                                         SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000           2
■   O F F I C E      O F      T H E        I N S P E C T O R      G E N E R A L




                                                                  Office Authority
                                                                  The TVA Board of Directors administra-
                                                                  tively established the OIG during
                                                                  October 1985. When the Inspector
                                                                  General Act Amendments of 1988 were
                                                                  enacted, TVA's OIG became one of the
                                                                  statutory offices whose Inspector
                                                                  General is appointed by the agency head.
                                                                  TVA's Inspector General is independent
                                  Richard F. Chambers             and subject only to the general supervi-
                                                                  sion of the Board of Directors.
                      The OIG’s New Leadership
                      Effective August 14, 2000, Richard F.
                      Chambers became TVA’s Inspector
                      General. Mr. Chambers came from the
                      U.S. Postal Service where he served as
                      the Assistant Inspector General for
                      Audits and then Deputy Inspector
                      General. Prior to that position,
                      Mr. Chambers worked for over 20 years
                      in positions of increasing audit and
                      management responsibility, primarily with
                      the U.S. Army, including 5 years as
                      Director, U.S. Army Internal Review, and
                      5 years as Chief, Internal Review and
                      Audit Compliance, U.S. Forces
                      Command.

                      Mr. Chambers replaced George T.
                      Prosser, who announced he would retire
                      at the end of December. Mr. Prosser will
                      remain in an advisory role to
                      Mr. Chambers until that time.




3   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                 O F F I C E   O F   T H E     I N S P E C T O R   G E N E R A L




Staffing and Budget
The OIG's offices are in the TVA head-                  The OIG's fiscal year 2000 budget was
quarters in Knoxville, Tennessee. The                   about $7.2 million with a budgeted
OIG also has an investigative satellite                 headcount of 82 employees.
office in Chattanooga, Tennessee.



                           OFFICE OF THE INSPECTOR GENERAL
                                        9/30/00



                                          INSPECTOR GENERAL
                                                   ■
                                           Richard F. Chambers


                                                                                    Manager
       Legal Counsel                                                            (Human Resources)

             ■                                                                             ■
       Richard P. Levi                                                               Kay T. Myers




                      Assistant                                            Assistant
                  Inspector General                                   Inspector General
                       (Audits)                                         (Investigations)
                          ■                                                    ■
                     Ben R. Wagner                                     G. Donald Hickman


                     ■ Contract                                          ■ Financial
                       Audits                                              Investigations
                       Paul E. Ivie                                        James M. Reed
                       Manager                                             Manager
                     ■ Financial and                                     ■ Internal
                       ADP Audits                                          Investigations
                       Deborah Meyers Thornton                             Ron W. Taylor
                       Manager                                             Manager
                     ■ Operational
                       Audits
                       and Special
                       Projects
                       Lewis M. Ogles
                       Manager




                                                             SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000             4
■   S P E C I A L             F E A T U R E




                        TVA OIG EMPLOYEES AND TEAMS
                        RECEIVE AWARDS

                        On September 14, 2000, the Executive
                        Council on Integrity and Efficiency (ECIE)
                        honored George T. Prosser, former
                        Inspector General, for outstanding
                        contributions to the Inspectors General
                        community. Several employees in the
                        TVA OIG also were recently recognized
                        for their outstanding accomplishments.
                                                                                            George T. Prosser

                        On September 29, 2000, the President’s
                        Council on Integrity and Efficiency (PCIE)
                        and the ECIE presented annual awards
                        for outstanding achievements within the
                        Inspector General community in promot-
                        ing economy and efficiency in govern-
                        ment and fighting fraud, waste, and
                                                                             TVA OIG employees and teams recog-
                        abuse in federal operations.
                                                                             nized for their contributions were:

                                                                             ■   G. Donald Hickman, Assistant
                                                                                 Inspector General, Investigations,
                                                                                 received an ECIE Award of Excellence
                                                                                 for his leadership and sustained
                                                                                 contributions to the law enforcement
                                                                                 community. Mr. Hickman’s contribu-
                                                                                 tions included his (1) support for the
                                                                                 OIG’s participation in interagency task
                                                                                 forces, (2) work in the development of
                                                                                 the Inspector General Academy,
                                                                                 (3) efforts towards initiating audit and
                                                                                 investigation automated tracking
                                                                                 systems, and (4) ongoing leadership
             From left to right, George T. Prosser, G. Donald Hickman, and
                                   Richard F. Chambers                           contributing to the significant results
                                                                                 of OIG investigations.



5   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                             S P E C I A L     F E A T U R E




   ■   Special Agent James F. Farr and
       Senior Auditor Jerry D. Stover were
       recognized with an ECIE Award of
       Excellence for their outstanding
       teamwork and efforts in a complex
       audit/investigation of fraud related to
       TVA’s Tool Management Program,
       which was administered by a private
       contractor. Their efforts revealed a                   From left to right, George T. Prosser, James F. Farr, Paul E. Ivie
                                                            (accepting the award for Jerry D. Stover), and Richard F. Chambers
       conspiracy to steal over $1 million in
       TVA-owned tools, resulting in the
       criminal convictions of three
       individuals.




                                                                ■   Senior Special Agent Michael G.
                                                                    Duncan and Harriet A. Miller, former
                                                                    OIG Senior Auditor who is now a
                                                                    Team Leader with Financial Stan-
                                                                    dards, River System Operations and
                                                                    Environment, received an ECIE Award
                                                                    of Excellence for their work in resolving
                                                                    a complex product substitution case,
                                                                    which included reconstructing
                                                                    destroyed records and obtaining a
                                                                    major fraud conviction. Mr. Duncan
                                                                    and Ms. Miller worked together to
                                                                    uncover a scheme under which a coal
                                                                    company provided TVA with
From left to right, Harriet A. Miller, George T. Prosser,
   Richard F. Chambers, and Michael G. Duncan                       147,000 tons of coal blended with
                                                                    petroleum coke, an oil refinery
                                                                    product. TVA paid more than $3 mil-
                                                                    lion for the blended coal.




                                                                    SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000                  6
S P E C I A L   F E A T U R E




                          ■   The OIG’s Workers’ Compensation
                              Team, composed of Special Agents
                              James E. Hunter and Craig A. Yates,
                              and Financial Investigations Manager
                              James M. Reed, received an ECIE
                              Award of Excellence in Investigations
                              for their achievements in identifying
                              and eliminating fraud in TVA’s
                              workers’ compensation program.
                              Their work from July 1, 1999 to                   From left to right, George T. Prosser, James M. Reed, Craig A.
                                                                               Yates, and Richard F. Chambers (not pictured James E. Hunter).
                              June 30, 2000, led to (1) the suspen-
                              sion, reduction, or termination of
                              benefits for six individuals and a
                                                                                ■   A joint PCIE/ECIE Award of Excellence
                              projected savings to TVA of over
                                                                                    in Investigations was awarded to the
                              $2.5 million and (2) three convictions
                                                                                    Environmental Crimes Joint Task
                              for making fraudulent statements to
                                                                                    Force for outstanding work in fighting
                              receive federal workers’ compensation
                                                                                    environmental crimes. Representa-
                              benefits.
                                                                                    tives from several agencies serve on
                                                                                    the task force, including the
                                                                                    U.S. Attorney’s Office of the Eastern
                                                                                    District of Tennessee, the Federal
                                                                                    Bureau of Investigation (FBI), the
                                                                                    Environmental Protection Agency
                                                                                    (EPA), the Department of Energy
                                                                                    (DOE), and the Tennessee Highway
                                                                                    Patrol. Joseph P. Boehr, an OIG
                                                                                    Senior Special Agent, and Arthur A.
                                                                                    Schettini, Lieutenant, TVA Police,
                                                                                    serve on the task force. From July 1,
                                                                                    1999 to June 30, 2000, the task
                                                                                    force’s efforts contributed to six
                 From left to right, George T. Prosser, Joseph P. Boehr, and
                                      Richard F. Chambers                           convictions and savings, fines,
                                                                                    penalties, and restitution totaling over
                                                                                    $2.7 million.




7   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                           A U D I T S   ■




Audits are initiated from (1) the OIG       reimbursable contract terms and reduc-
annual workplan, (2) issues identified by   ing or eliminating certain indirect costs.
the OIG subsequent to the annual            Highlights of the more significant
workplan, (3) issues identified by          preaward audits follow.
cooperative efforts with TVA manage-
ment, or (4) concerns raised by TVA         ■   We reviewed proposed non-manual

management or others. During this               labor and indirect cost rates for a

reporting period, we issued 35 audit            planned $135 million contract

reports which identified $1.8 million in        extension related to TVA’s clean air

questioned costs and about $12.9 million        initiative. We found TVA could save

in funds which could be put to better use       about $8.6 million by negotiating cost-

(see Appendix 1).                               reimbursable contract terms and
                                                reducing or eliminating certain indirect
Summary of                                      cost markups.
Representative Audits
                                            ■   We reviewed proposed labor billing
Our audits included preaward and                rates included under a subcontract
postaward audits of TVA contractors as          arrangement worth about $28 million
well as computer security reviews and           for a portion of the engineering
performance reviews of TVA programs.            services related to TVA’s clean air
                                                initiative. We found TVA could save
RECOMMENDATIONS FOR                             about $4.2 million by negotiating a
POTENTIAL COST SAVINGS IN
                                                reduction in the subcontractor’s billing
CONTRACT NEGOTIATIONS
                                                rates from market-based rates to
We conducted six preaward audits to
                                                actual costs plus a reasonable profit.
assist TVA management in negotiation of
procurement actions. These audits           During this reporting period, TVA
identified opportunities for TVA manage-    management successfully negotiated
ment to negotiate savings totaling about    total savings of over $17 million as a
$12.9 million. Our preaward findings        result of audits issued during this and
included suggestions for using cost-        previous reporting periods.




                                                 SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000    8
A U D I T S




                     CONTRACT COMPLIANCE AUDITS                   ■   We reviewed costs billed by a trans-
                     We completed 18 contract compliance              mission steel pole vendor under its
                     audits and questioned $1.8 million in            $45 million contract with TVA. The
                     overbillings and excessive costs to TVA.         contract provided for price adjust-
                     Our audit findings included questioned           ments based on a published index.
                     costs related to:                                However, we found the contractor
                                                                      adjusted its prices based on its
                     ■   Overhead and payroll tax rates applied       claimed raw material costs rather than
                         to inappropriate labor rates.                the published index stipulated in the
                                                                      contract. Accordingly, of the
                     ■   Overrecovery of payroll taxes, insur-
                                                                      $22.6 million TVA had paid the vendor,
                         ance, and fringe benefit costs.
                                                                      we estimated TVA overpaid more than
                                                                      $900,000 for the poles.
                     ■   Unsupported and overbilled labor
                         costs.
                                                                  ■   We reviewed costs billed for security
                                                                      services provided by a security
                     ■   Overstated material costs.
                                                                      personnel contractor under its
                     ■   Overstated and ineligible per diem           $33 million contract with TVA. The
                         costs.                                       contract provided for the contractor to
                                                                      bill for estimated payroll taxes, fringe
                     ■   Overbilled other direct costs.               benefits, and paid time off costs
                                                                      subject to periodic adjustment to
                     ■   Failure of contractor to provide
                                                                      actual costs. Of the $10.4 million
                         contractually agreed volume
                                                                      billed during the audit period, we
                         discounts.
                                                                      found the contractor’s estimated
                                                                      costs were about $470,000 greater
                     Highlights of the more significant
                                                                      than the contractor’s actual costs.
                     contract compliance audits follow.




9   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                              A U D I T S




■   We reviewed labor and other costs         CONTROLS OVER SYSTEMS
                                              MANAGEMENT SERVER REMOTE
    billed by a nuclear plant modification
                                              TOOL USAGE
    and supplemental maintenance
    services contractor under its             In January 2000, TVA began implement-

    $383.7 million contract with TVA. We      ing the System Management Server

    found of the $149 million audited, the    (SMS) remote control tools to assist in

    contractor’s billings were generally in   managing TVA’s desktop computer

    accordance with the contract except       resources. These tools allow TVA to

    that the contractor did not reduce its    deliver software and repair computers by

    general and administrative cost markup    remotely accessing another computer.

    after exceeding certain labor-hour        While remote control tools allow TVA to

    thresholds. Accordingly, we found         better manage its computing resources,

    TVA was owed about $243,000 due to        the misuse of these tools presents a risk

    overrecovery of the markup.               to the security of TVA’s sensitive
                                              information.
Management generally agreed with our
findings and has taken or plans to take       We reviewed the adequacy of the

action to recover questioned costs where      internal controls for the SMS remote

appropriate.                                  control tools. We found TVA’s data
                                              collection was incomplete and insuffi-
                                              cient to allow for proper monitoring of
                                              the remote control usage. We made
                                              specific recommendations to TVA
                                              management to improve the data
                                              collection and ensure all necessary
                                              information is collected to allow for
                                              monitoring. TVA management agreed
                                              with the findings and is taking action to
                                              implement the recommendations.




                                                 SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000   10
A U D I T S




                      ACCESS CONTROLS OVER                          GOVERNMENT PERFORMANCE AND
                      EMPLOYEE SelfService SOLUTIONS                RESULTS ACT OF 1993

                      TVA implemented an intranet-based             TVA developed 24 performance indica-
                      application—Employee Self Service             tors as part of the Annual Performance
                      Solutions (ESSS)—to enable employees          Plan submitted to Congress in response
                      to access personal and TVA information.       to the Government Performance and
                      The ESSS allows TVA’s approximately           Results Act of 1993 (GPRA). During this
                      13,000 employees access to payroll,           semiannual period, we completed five
                      benefits, training, and travel information.   audits pertaining to GPRA performance
                      We reviewed the access controls to            indicators. The five indicators audited
                      determine if ESSS information was             were (1) Reportable Environmental Event
                      protected from unauthorized access. We        (REE), (2) Wholesale Customers With
                      reviewed such access controls as (1) the      Continuing Contracts (WCCC), (3) Aera-
                      process for changing pin numbers,             tion System Availability (ASA), (4) Mini-
                      (2) UNIX permissions and Oracle privilege     mum Flow Achievement (MFA), and
                      controls pertaining to ESSS files, and        (5) Summer Lake Level Attainment
                      (3) Oracle privileges of Data Base            (SLLA). The objective of each audit was
                      Administrators granted to the ESSS            to determine if the (1) information
                      system files. We found the access             systems that provide source data for the
                      controls to the ESSS could be improved        indicator are reasonably accurate and
                      by (1) changing the process for revising      reliable and (2) indicator is reported
                      pin numbers and (2) removing Oracle           correctly. We found the information used
                      privileges granted to a certain user          to support the REE, WCCC, and SLLA
                      identification. TVA management took           indicators was accurate and reliable, and
                      immediate action to correct the problems      the indicators were reported correctly.
                      identified.                                   However, we could not assess the




11   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                              A U D I T S




adequacy of the data and information         1,285 subvouchers totaling about
systems supporting the remaining two         $1.6 million for advertising, hospitality,
indicators because the:                      corporate membership dues, materials,
                                             and services.
■   MFA indicator was not measured in
    accordance with the criteria given in    We found that subvouchers were
    the Annual Performance Plan.             properly prepared and authorized by TVA
                                             organizations and were reviewed by
■   ASA was not calculated as defined in     Accounts Payable prior to payment.
    the Annual Performance Plan, and         However, we found that Accounts
    TVA did not maintain sufficient          Payable internal controls to prevent
    documentation to verify the indicator.   duplicate payments could be improved.
                                             Accounts Payable immediately took
TVA management has agreed to take
                                             appropriate action to improve detection
action to correct the deficiencies found
                                             of duplications.
and ensure that adequate documentation
is maintained.                               MATERIALS MANAGEMENT AT BULL
                                             RUN FOSSIL PLANT
REVIEW OF CASH SUBVOUCHERS
                                             We reviewed the materials management
Cash subvouchers are an alternative
                                             process at Bull Run Fossil Plant (BRF)
procurement procedure used when
                                             and noted several conditions that
negotiation of a contract is not practical
                                             increase the risk of (1) plant personnel
and the vendor will not accept TVA
                                             not having material when needed or
Procurement VISA cards. TVA uses
                                             (2) material being needlessly purchased.
subvouchers for small dollar (typically
                                             In summary, we found:
under $5,000) or infrequent transactions.
For the period June 1 through Decem-
ber 28, 1999 (7 months), TVA paid




                                                 SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000   12
A U D I T S




                      ■   Inventory shortages totaling $184,580     ■   Succession planning had not been
                          and inventory overages totaling               initiated even though the two BRF
                          $166,765. The absolute dollar                 storeroom employees are expected to
                          difference of $351,345 was 5.7 per-           retire within the next two years.
                          cent of the inventory’s $6.2 million
                          value.                                    A team of BRF and Procurement person-
                                                                    nel, along with an OIG representative, has
                      ■   A significant amount of material stored   been established to address the
                          at BRF was not recorded in any BRF        conditions.
                          inventory account. Although we did
                          not estimate the value of this non-
                          inventory material, several items
                          appeared to have considerable value.

                      ■   Virtually all BRF employees had card
                          key access to the BRF storeroom. In
                          addition, 25 TVA Procurement
                          employees, 29 other TVA employees,
                          and 4 individuals not employed by TVA
                          had access.




13   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                I N V E S T I G A T I O N S               ■




During the last six months, we substanti-         claims for living expenses. The
ated allegations in 19 of the 99 investiga-       individual worked for two contract
tions we closed—almost 20 percent.                firms at TVA sites in southeastern
Our investigations resulted in over               Tennessee. Although his permanent
$700,000 in savings and recoveries, 5             residence was within commuting
subjects indicted, and 5 convicted. In            distance of his TVA worksites, he
addition to investigations discussed              claimed it was in Ohio. The individual
previously in the special feature, other          produced false property tax documen-
representative investigations are high-           tation and a fraudulent rental agree-
lighted below.                                    ment to support his TLE claims.


Summary of                                        (During this reporting period, the
Representative                                    former contractor employee was
Investigations                                    sentenced to three years’ probation
                                                  and ordered to pay TVA $36,199
FALSE CLAIMS—TEMPORARY                            restitution for the TLE reimbursement
LIVING EXPENSES
                                                  he fraudulently received.)
We continued our efforts to reduce TVA
contract costs by identifying fraudulent      ■   Our investigation revealed two
and ineligible temporary living expenses          employees of a TVA contractor were
(TLE) paid to TVA contractor employees.           not entitled to TLE reimbursement
                                                  totaling over $70,000.
To receive TLE, generally a contractor
employee must incur duplicate expenses            To receive reimbursement for TLE, one
for a temporary residence near the TVA            of the contractor employees claimed

worksite and a permanent residence                his permanent residence was a home
more than 100 miles from the worksite.            in a neighboring state, which he
                                                  purchased from his parents. How-
During this reporting period, our TLE             ever, evidence showed the parents,
investigations led to recoveries or               not the contractor employee, were the
questioned costs of over $100,000.                permanent residents of the home, and
Highlights of these investigations follow.        the contractor employee had a
                                                  permanent residence in commuting
■   During the previous reporting period, a
                                                  distance of his TVA workstation.
    former contractor employee pled guilty
    to three counts of submitting false



                                                   SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000   14
I N V E S T I G A T I O N S




                              The second contractor employee          ■   A former TVA pipefitter was sentenced
                              claimed an out-of-state residence to        in federal court on two counts of mail
                              receive TLE reimbursement. Evidence         fraud and two counts of making a
                              revealed the individual no longer           false statement to obtain federal
                              possessed that home but maintained          workers’ compensation. The former
                              a permanent residence within com-           TVA employee was sentenced to one
                              muting distance of the TVA site at          month in federal prison, three years’
                              which he worked.                            supervised release, and was ordered
                                                                          to pay $8,839 in restitution to TVA.
                              TVA has agreed to seek recovery of
                              these claims.                               (During a previous period, our investi-
                                                                          gation found the individual was
                        FALSE CLAIMS—OFFICE OF
                                                                          employed by three different busi-
                        WORKERS’ COMPENSATION
                        PROGRAMS                                          nesses performing welding, fabricat-
                                                                          ing, mechanic work, and general
                        To receive benefits through the Federal
                                                                          labor—including operating mowers
                        Employees’ Compensation Act (FECA),
                                                                          and tractors—but did not report this
                        recipients must periodically submit forms
                                                                          employment while he was receiving
                        to the Office of Workers’ Compensation
                                                                          total temporary disability benefits.)
                        Programs (OWCP) that require the
                        recipient to report all employment            ■   As a result of our investigation of a
                        activities (including self-employment).           former TVA painter, TVA saved over
                        OWCP uses the forms to determine a                $300,000. Our investigation found
                        recipient’s continuing eligibility for FECA       the former employee was jailed in a
                        benefits. Failure to disclose employment          Tennessee county facility after
                        information to OWCP violates state and            pleading guilty to three felony offenses.
                        federal laws.                                     Under FECA, no benefits can be
                                                                          provided to any individual confined to a
                        During this reporting period, our FECA
                                                                          correctional facility following felony
                        fraud investigations led to current and
                                                                          conviction(s). As a result of our
                        long-term savings and recoveries of over
                                                                          finding, workers’ compensation
                        $500,000, one subject indicted, and two
                                                                          benefits were stopped during the
                        convicted. Highlights of investigative
                                                                          individual’s incarceration, saving TVA
                        results follow.
                                                                          over $40,000.




15   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                             I N V E S T I G A T I O N S




    Further, we found he was not paying         investigations conducted by the contrac-
    court-ordered child support, even           tor. The contractor provided trained,
    though (when not incarcerated) he           experienced nuclear employees to TVA,
    received a higher rate of benefits          and the employee was responsible for
    because he claimed dependent                processing contractor employees. These
    children. The individual’s benefits         responsibilities included conducting
    were reduced following his release,         background investigations and docu-
    creating an estimated long-term cost        menting the results.
    avoided to TVA of over $290,000.
                                                We reviewed several background
■   An OIG employee pled guilty to a            investigations performed by the individual
    misdemeanor charge of workers’              and found references who contradicted
    compensation fraud. The employee,           documentation provided to TVA by the
    who resigned from TVA, admitted             contractor. We also found evidence
    engaging in a pattern of falsifications     indicating some information provided to
    in connection with her medical visits.      TVA was fabricated.
    More specifically, she requested
    reimbursement for more hours of lost        Based on our investigation, TVA Nuclear

    time from OWCP than she claimed as          (TVAN) management took action, which

    leave without pay on her TVA leave          included the following.

    forms, resulting in her receiving pay for
                                                ■   Suspended clearances and badge
    certain hours from both TVA and
                                                    cards for current workers affected by
    OWCP. She was placed on probation
                                                    the issue, then re-screened the
    for one year and fined. Based on this
                                                    employees.
    conviction, OWCP terminated her
    workers’ compensation benefits. In          ■   Placed a TVAN internal alert to notify
    addition, the former OIG employee               responsible personnel should
    reimbursed TVA for the lost time                currently inactive workers affected by
    payments and other questioned travel            this issue request access to TVAN
    claims.                                         facilities in the future.

CONTRACTOR EMPLOYEE
                                                ■   Informed Nuclear Regulatory Commis-
SECURITY ISSUE
                                                    sion inspectors of the situation and
An OIG investigation found an employee              requested the Nuclear Energy Institute
of a TVA contractor falsified information           issue a bulletin regarding the issue.
provided to TVA concerning background


                                                     SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000            16
I N V E S T I G A T I O N S




                        ■     Issued a letter to all current approved   plans and TVA’s medical plan (adminis-
                              contractor security screening compa-      tered by BCBST) of over $123,000 during
                              nies reemphasizing the importance of      an approximate three-year period.
                              providing factual information in
                              background investigations.                The investigation found evidence the
                                                                        physician mailed claim forms containing
                        ASSISTANCE TO TVA MANAGEMENT                    false information to obtain payment for
                        To assist TVA and at the request of TVA         services not rendered and supplies not

                        management, we continued to perform             used.
                        background investigations for sensitive
                                                                        The investigation was conducted by OIG
                        positions and for national security
                                                                        special agents from TVA, the U.S.
                        clearances. These investigations ensure
                                                                        Department of Defense (Defense Criminal
                        individuals being hired for sensitive
                                                                        Investigative Services), U.S. Department
                        positions meet applicable requirements.
                                                                        of Labor, and investigators from
                        By using the OIG to perform these
                                                                        BCBST’s Special Investigations Unit.
                        inquiries, rather than the U.S. Office of
                        Personnel Management, TVA saved over
                                                                        The physician is awaiting trial.
                        $2,000 per investigation.
                                                                        ENVIRONMENTAL CRIMES JOINT
                        HEALTH CARE FRAUD TASK FORCE                    TASK FORCE
                        We continued to support health care             We continued our participation in the
                        fraud task forces and working groups            Environmental Crimes Joint Task Force
                        sponsored by the U.S. Attorney’s offices        (ECJTF), which is comprised of members
                        in Tennessee’s Eastern, Middle, and             from numerous state and federal agen-
                        Western federal districts.                      cies, including the FBI, EPA, Department
                                                                        of Justice, and TVA’s OIG.
                        In the Eastern federal district, a physician
                        was indicted on 57 counts of mail fraud,        ECJTF focuses enhanced law enforce-
                        15 counts of health care fraud, and             ment resources against individuals and
                        6 counts of making false statements             companies involved in environmental
                        relating to health care matters.                crimes and prosecutes those individuals
                                                                        and companies by applying the most
                        The indictment alleged the physician
                        defrauded Blue Cross Blue Shield of
                        Tennessee’s (BCBST) private insurance




17   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                       I N V E S T I G A T I O N S




effective federal and state criminal and    guilty (one count each) to violating the
civil statutes. Highlights of the task      Resource Conservation and Recovery
force’s work include the following.         Act.

Fish Kill - Guilty Plea                     Our investigation revealed the company

A Kentucky coal company and one of its      picked up used carburetor cleaner
officers pled guilty (one count each) to    without an appropriate EPA waste
violating the Clean Water Act.              manifest and did not properly dispose of
                                            or recycle the waste. Additionally, the
The company violated the terms of a         company’s president misled investigators
permit covering a mining and reclamation    by stating the material had been shipped
operation in Campbell County, Tennes-       to a reclamation site when it had not.
see. Investigation revealed the company
improperly pumped mine wastewater into      A federal judge ordered the company
a nearby creek, adversely altering its pH   placed on probation for three years and

levels and reducing the oxygen in the       ordered it to create, maintain, and effect
creek. A significant number of dead and     an environmental protection safety policy
dying fish were found 200-300 feet          and plan for its management and

downstream from the discharge point.        employees. The company’s president
(The mining company officer admitted        was sentenced to 1 year probation and
responsibility for the discharge, and the   150 hours of community service.

pumping was immediately stopped.)
                                            DOE subsequently debarred the com-
The company and its officer are awaiting    pany from government contracting and
sentencing.                                 government-approved subcontracting for
                                            a period of three years.
Illegal Transport of Hazardous
Material - Sentencing

We previously reported an environmental
services business (licensed hazardous
waste transporter) and its president pled




                                                   SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000         18
I N V E S T I G A T I O N S




                              Administrative and Disciplinary Actions Since
                                            October 1, 1995*
                                               Total = 254
                                                Resignations/
                               Oral/Written     Terminations          Suspensions/
                                Warnings               15.5%           Demotions/
                                              16.5%             11%     Transfers
                                              27%              30%

                          Reemployment
                             Flagged                                Counseling/
                                                               Management Techniques

                              *Prosecutive referrals are shown at Appendix 3.




                                      The breakdown of the 99 closed investigations involving
                                                 TVA organizations are shown below.


                                                                      Fossil
                                                                      Power
                                                                                            Other
                                                                         14%
                                                                                      31.5%
                                                TVA Nuclear       14%
                                                                       12%
                                                                                  28.5%
                                                      River System
                                                      Operations &                 Chief Administrative Officer/
                                                      Environment                      Business Services




                                                                             Referrals for OIG Investigations
                                                                                     or Audit Action
                                                                                        Total = 46


                                                                        General
                                                                         Public
                                                                                52%                        TVA/Contractor
                                                                                                28.5%
                                                                                                            Employees &
                                                                                      15%               Contractor Companies
                                                                                               4.5%
                                                                Former TVA/Contractor           Anonymous
                                                                     Employees




19   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                          S P E C I A L                   P R O J E C T S ■




In addition to conducting audits and          Energy to Market Program. We devel-
investigations, our office continues to       oped flowcharts in an iterative process
perform special projects upon request by      based on draft procedures and discus-
our customers, primarily the Board of         sions with responsible program manag-
Directors, TVA management, and                ers, which resulted in refinements to the
Congress. During this reporting period,       BPT procedures.
we conducted eight special projects. The
most significant projects are summarized      CONTRACTOR’S CLAIM FOR
                                              UNBILLED LABOR
below.
                                              We reviewed a $233,000 claim for
HOSPITALITY AND ENTERTAINMENT                 unbilled labor submitted by a former TVA
We compared TVA’s hospitality policy,         contractor. We found none of the
which includes entertainment, with the        contractor’s claim was properly sup-
hospitality and entertainment policies of     ported, and in fact, the contractor had
14 other agencies created by the federal      actually billed TVA for more total hours
government that receive a substantial         than they could support. TVA and the
portion of their revenues through             contractor have agreed to settle the
nonappropriated sources. We found that        matter through arbitration.
other agencies’ entertainment and
                                              TVA PRESCRIPTION DRUG PLAN—
hospitality polices were generally more
                                              PHARMACEUTICAL BENEFITS
restrictive than TVA’s policy. In addition,   MANAGER IMPLEMENTATION
TVA appeared to spend significantly more
                                              At the request of TVA’s Compensation
on entertainment and hospitality than the
                                              and Benefits staff, we served as an
surveyed agencies that provided cost
                                              advisor to the Pharmaceutical Benefits
data.
                                              Manager (PBM) Implementation Team.
BULK POWER TRADING                            Effective September 1, 2000, a different
IMPLEMENTATION OF NEW POWER                   company became TVA’s PBM. Our input
PRODUCTS                                      focused on (1) TVA’s and PBM’s
At the request of the Vice President, Bulk    processes and responsibilities and (2) the
Power Trading (BPT), we worked with           adequacy of billing, eligibility, and claims
BPT staff to review draft procedures for      data. Specifically, we provided input
implementing several new power                regarding the internal control processes
products, including Firm/Fixed Price          and data fields necessary to ensure
Buybacks, Market Days Variable Price          billing, eligibility verification, claims
Interruptible Power, and the Wholesale        adjudication, and reporting accuracy.



                                                   SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000   20
■    L E G I S L A T I O N                A N D          R E G U L A T I O N S




                      During this reporting period, we contin-
                      ued to follow several bills relevant to the
                      OIG community, including the Govern-
                      ment Information Security Act and a bill
                      to make the TVA Inspector General
                      presidentially appointed.




21   TVA/OFFICE OF THE INSPECTOR GENERAL
■   A P P E N DI C E S




         SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
Appendix 1
Page 1 of 2

              OIG AUDIT REPORTS ISSUED DURING
              THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2000

              The following table summarizes final audit reports issued by the OIG from April 1 through September 30, 2000.

                                                                                                                   FUNDS
               DATE          REPORT                                          QUESTIONED       UNSUPPORTED       TO BE PUT TO
              ISSUED         NUMBER             REPORT TITLE                    COSTS           COSTS            BETTER USE

              4/4/2000     2000-029C-04 Scientific Sales, Inc.

              4/7/2000     2000-033F       Reportable Environmental
                                           Event Performance Indicator

              4/7/2000     2000-036F       Review of Subvouchers

              4/7/2000     2000-040C       Arclar Company LLC -
                                           Contract 97P01-199325

              4/10/2000    2000-051C       American Aquatics -
                                           Overhead Review

              4/14/2000    1999-037P-01 Review of the Effect of
                                        Automation on TVA Dam Security

              4/18/2000    2000-007C       Cataract - Contract TV-95293V         $32,322

              4/18/2000    2000-018C       Canus - Contract TV-95292V              4,945

              4/18/2000    2000-052C       Fish & Wildlife Associates -
                                           Overhead Review

              4/20/2000    1999-037P-02 Review of TVA Police Incident
                                        Data for Hiwassee Plant
                                        Group Dams

              4/20/2000    1999-068C       Alcan Cable -
                                           Contract 98P8D-220675                     759

              5/9/2000     2000-056F       Wholesale Customers With
                                           Continuing Contracts

              5/15/2000    2000-029C-01 Ecolochem, Inc. - Source One

              5/16/2000    1999-078C       McDaniel Fire Systems -
                                           Limited Cost Compliance Review         74,101         $29,002

              5/25/2000    2000-025C       Stone & Webster Construction
                                           Company Contracts
                                           96N5B-161365-02 &
                                           96NNX-161365-03                       243,023         243,023

              5/25/2000    2000-029C-05 Betz Dearborn, Inc.                        4,693

              6/2/2000     2000-050F       Access Controls Over Employee
                                           SelfService Solutions

              6/5/2000     2000-029C-03 PB&S Chemical Company, Inc.                5,515

              6/7/2000     2000-047C       Electrical Supply Alliance




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                           Appendix 1
                                                                                                           Page 2 of 2

                                                                                                FUNDS
 DATE         REPORT                                           QUESTIONED     UNSUPPORTED   TO BE PUT TO
ISSUED        NUMBER           REPORT TITLE                       COSTS         COSTS        BETTER USE

6/16/2000   2000-004C      Valmont Industries                    $929,000

6/22/2000   2000-057C      Chem-Nuclear Price Increase

6/22/2000   2000-062C      Primacy Relocation

6/22/2000   2000-069C      Chem-Nuclear Systems, Inc. -
                           Review of Amounts Billed

7/12/2000   2000-072F      Review of Summer Lake Level
                           Indicator

7/14/2000   2000-009C      Pressures On, Inc. -
                           Contract 97PA1-185965-06                25,000 *

8/2/2000    2000-006C      Alstom Power, Inc. -
                           Environmental Systems
                           Division - SCR Alliance Project                                   $8,624,582

8/7/2000    1999-080C      Allied Welding and Safety LLC

8/10/2000   2000-060F      Aeration System Availability
                           Indicator

8/11/2000   2000-064C      Burns International Security
                           Services                               480,712      $480,712

9/11/2000   2000-008C      Siskin Steel and Supply Co. -
                           Contract 96XBL-165618-00

9/11/2000   2000-055C      Neill & Gunter - Preaward Audit                                    4,224,822

9/11/2000   2000-073P      Materials Management at
                           Bull Run Fossil Plant

9/28/2000   2000-075C      Conoco                                                               12,500

9/29/2000   2000-061F      Controls Over Systems
                           Management Server Remote
                           Tool Usage

9/29/2000   2000-071F      Review of Minimum Flow
                           Achievement Indicator

TOTAL       35                                                 $1,800,070      $752,737     $12,861,904

* Questioned costs include $25,000 for unreasonable or unnecessary expenditures not recoverable.




                                                             SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
Appendix 2
Page 1 of 2

              OIG’S REPORT ON MANAGEMENT DECISIONS FOR THE
              SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2000

              The following Tables I and II summarize management decisions made by TVA management on OIG
              recommendations contained in final audit reports. The tables reflect amounts which were questioned and
              recommended to be put to better use and track the disposition of these amounts through management decision.

                                                            TABLE I
                                           TOTAL QUESTIONED AND UNSUPPORTED COSTS

                                                                   NUMBER            QUESTIONED        UNSUPPORTED
                   AUDIT REPORTS                                  OF REPORTS           C OSTS             C OSTS


              A.   For which no management
                   decision has been made by
                   the commencement of the period                        1                $13,100                  $0

              B.   Which were issued during
                   the reporting period                                10               1,800,070             752,737

                   Subtotal (A + B)                                    11              $1,813,170           $752,737

              C.   For which a management
                   decision was made during
                   the reporting period                                  9*               403,458             272,025

                   1.   Dollar value of
                        disallowed costs                                 7                378,591             272,025

                   2.   Dollar value of
                        costs not disallowed                             3                 24,867                    0

              D.   For which no management
                   decision has been made by
                   the end of the reporting
                   period                                                2              1,409,712             480,712

              E.   For which no management
                   decision was made within
                   six months of issuance                                0                       0                   0

              * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
                disallowed and not disallowed by management.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                             Appendix 2
                                                                                                             Page 2 of 2

                                            TABLE II
                                 FUNDS TO BE PUT TO BETTER USE

                                                     NUMBER                             FUNDS TO BE PUT
     AUDIT REPORTS                                  OF REPORTS                           TO BETTER USE


A.   For which no management
     decision has been made by
     the commencement of the period                        2                                  $227,000

B.   Which were issued during
     the reporting period                                  3                                12,861,904

     Subtotal (A + B)                                      5                               $13,088,904

C.   For which a management
     decision was made during
     the reporting period                                  5*                               13,088,904

     1.   Dollar value of
          disallowed costs                                 4                                12,498,677

     2.   Dollar value of
          costs not disallowed                             4                                    590,227

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                                0                                           0

E.   For which no management
     decision was made within
     six months of issuance                                0                                           0

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
  disallowed and not disallowed by management.




                                                           SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
Appendix 3
Page 1 of 1

              INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS



              INVESTIGATIVE REFERRALS                      SUBJECTS   RESULTS THIS PERIOD


              Subjects referred to U.S. Attorneys            32            5   Indicted
                                                                           5   Convicted
                                                                          22   Referrals Declined

              Subjects referred to other agencies             9       OWCP terminated and/or suspended
              for investigative or administrative action              benefits of three individuals, creating
                                                                      current and long-term savings
                               TOTAL                          41      totaling $505,057.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                           Appendix 4
                                                                                                           Page 1 of 1

AUDIT REPORTS WITH CORRECTIVE ACTIONS PENDING

Final corrective actions of recommendations in two contract compliance reports, five operational audits,
and three financial-related audits have not yet been fully implemented; however, all are being
implemented in accordance with currently established milestones.

Report 1996-037C-01 issued August 11, 1998
The report contained one recommendation regarding the contractor’s ability to produce adequate
documentation for billed costs. TVA is assessing what action is needed.

Report 1996-037C-02 issued September 3, 1998
The report contained two recommendations—one regarding overpayments and one regarding the
contractor providing supporting documentation for billed costs. TVA is pursuing recovery of
overpayments and resolution of unsupported costs.

Report 1999-031P issued October 15, 1999
The report contained two recommendations regarding overpayment of direct billed hotel charges.
TVA is currently implementing its planned actions.

Report 1999-001C-01 issued October 18, 1999
The report contained nine recommendations to improve the internal controls over the VISA
Purchasing Card Program. TVA has resolved six of the recommendations and is in the process of
improving program controls.

Report 1999-001C-02 issued December 9, 1999
The report contained 11 recommendations to improve the internal controls over the VISA
Gold Card Program. TVA has resolved five of the recommendations and is in the process of revising
and communicating guidelines to more clearly define program requirements and organizational roles
and responsibilities.

Report 2000-005F issued December 16, 1999
The report contained four recommendations to improve the internal controls over the VISA
Purchasing Card Pilot Program. TVA has resolved three of the recommendations and is currently
implementing their planned action on the other recommendation.

Report 1999-028P issued January 28, 2000
The report contained two recommendations regarding TVA’s Environmental Executive authorizing
Environmental Auditing to (1) perform environmental management system reviews and (2) follow up on
corrective actions and assess closure decisions. TVA is currently implementing their planned actions.

Report 1999-081F issued March 10, 2000
The report contained two recommendations regarding the internal controls associated with J-type
contracts. TVA has resolved one of the recommendations and is implementing their planned actions
for the other recommendation.

Report 2000-021F issued March 17, 2000
The report contained two recommendations regarding the internal controls associated with Material
Safety Data Sheets. TVA has resolved one of the recommendations and is implementing their planned
actions for the other recommendation.

Report 2000-037F issued March 21, 2000
The report contained one recommendation regarding retention of documentation to support
calculations. TVA is currently implementing their planned actions.




                                                             SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
Appendix 5
Page 1 of 1

              OIG REPORTING REQUIREMENTS

              Information required by the Inspector General Act of 1978, as amended, is included in this semiannual report as
              indicated below.

              Section 4(a)(2)     Review of Legislation and Regulations             Page 21

              Section 5(a)(1)     Significant Problems, Abuses, and                 Pages 5-20
                                  Deficiencies

              Section 5(a)(2)     Recommendations With Respect to                   Pages 5-20
                                  Significant Problems, Abuses, and
                                  Deficiencies

              Section 5(a)(3)     Recommendations Described in Previous             Appendix 4
                                  Semiannual Reports on Which Corrective
                                  Action Has Not Been Completed

              Section 5(a)(4)     Matters Referred to Prosecutive                   Appendix 3
                                  Authorities and the Prosecutions
                                  and Convictions That Have Resulted

              Sections 5(a)(5)    Summary of Instances Where Information            None
              and 6(b)(2)         Was Refused

              Section 5(a)(6)     Listing of Audit Reports                          Appendix 1

              Section 5(a)(7)     Summary of Particularly Significant Reports       Pages 8-20

              Section 5(a)(8)     Status of Management Decisions for                Appendix 2
                                  Audit Reports Containing Questioned Costs

              Section 5(a)(9)     Status of Management Decisions for                Appendix 2
                                  Audit Reports Containing Recommendations
                                  That Funds Be Put to Better Use

              Section 5(a)(10)    Summary of Unresolved Audit Reports               None
                                  Issued Prior to the Beginning of the
                                  Reporting Period

              Section 5(a)(11)    Significant Revised Management Decisions          None

              Section 5(a)(12)    Significant Management Decisions With             None
                                  Which the Inspector General Disagreed




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                     HIGHLIGHTS

                                                           FOR SEMIANNUAL REPORTING PERIODS
                                               SEPT 30,        MAR 31,     SEPT 30,    MAR 31,     SEPT 30,
                                                2000            2000        1999        1999        1998

ANNUAL BUDGET (In Millions of Dollars)             7.2               7.2      7.3         7.3          7.3
CURRENT STAFFING                                    77                79       78          81           83

AUDITS & SPECIAL PROJECTS
AUDITS IN PROGRESS
Carried Forward                                     48            36          34*          40          46
Started                                             38            59          41           42          34
Canceled                                             (8)           (2)         (3)        (11)        (13)
Completed                                          (35)          (45)        (36)         (38)        (27)
In Progress at End of Reporting Period              43            48          36            33         40

AUDIT RESULTS (Thousands)
Questioned Costs                               $1,800           $952       $1,678      $1,137       $1,769
Disallowed by TVA                                 379             820         673         946        1,656
Recovered by TVA                                  390           1,333         580         607          110

Funds to Be Put to Better Use                 $12,862          $5,296      $9,861      $1,402        $220
Agreed to by TVA                               12,499           5,509       7,612         980        5,169
Realized by TVA                                17,340           5,775       1,834         389          136

SPECIAL PROJECT RESULTS (Thousands)
Completed                                           8             12          11              18        11
Cost Savings Identified/Realized                 $233           $345           0               0   $14,704

INVESTIGATIONS
INVESTIGATION CASELOAD
Opened                                            132            107          88           59          78
Closed                                             99            111          81           66          81
In Progress at End of Reporting Period            170            137 *       140          133         140

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                       $179         $3,758       $1,772      $1,145        $284
Savings                                           521            988        1,422       1,912        3,388
Fines/Penalties                                    11             25            5          27 **

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                            13               21       21              19       20
Actions Taken (# of Subjects)                       11               13       17              11       22
Counseling/Management
  Techniques (# of Cases)                             6               5        3              4         8 **

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                            32                7        8              4        12
Indicted                                             5                6        7              6         5
Convicted                                            5                9        5              9         9

* Adjusted from previous semiannual reports.
** Category added to Highlights during reporting period indicated.




                                                                SEMIANNUAL REPORT/APRIL 1, 2000 ~ SEPTEMBER 30, 2000
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY

                    400 WEST SUMMIT HILL DRIVE

                 KNOXVILLE, TENNESSEE 37902-1401
